filed
SEP 16 2019

No.

g£S&ffr8liSBE

In The
Supreme Court of the United States
JENN-CHING LUO,
Petitioner,
v.
LOWE'S HOME CENTERS, LLC
JAMES R. WALTERS
CHRIS S. ERNEST

Respondents.
On Petition for Writ of Certiorari
to the Superior Court of Pennsylvania

APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR WRIT OF CERTIORARI
JemrChing Luo, Pro se
PO Box 261
Birchrunville, PA 19421
(516)3430088
E-mail: jennchingluo@gmail.com

APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI
TO THE SUPERIOR COURT OF PENNSYLVANIA
To the Honorable Justice Samuel A. Alito, Jr., as Associate Justice
for the United States Court of Appeals for the Third Circuit:
Pursuant to Rules 13.5 and 30.2 of this Court, Petitioner Jemr
Ching Luo, respectfully requests that the time to file a petition for a
writ of certiorari in this matter be extended for 40 days to and including
December 2, 2019.
The Superior Court of Pennsylvania (“the Superior Court”) issued
its decision on November 2, 2018 (see App. la_7a) and denied the
Petitioner's petition for panel rehearing or rehearing en banc on
December 28, 2018, (see App. 8a). The Supreme Court of Pennsylvania
denied Petitioner's petition for allowance of appeal on June 18, 2019
(see App. 9a). The Supreme Court of Pennsylvania denied Petitioner's
petition for a reconsideration on July 25, 2019 (see App. 10a)
This application is timely because it has been filed at least ten days
before current October 23, 2019 due date. (S. Ct R. 30.2) This Court
would have jurisdiction over the judgment under 28 U.S.C. §1257(a).
1

BACKGROUND AND PROCEDURAL HISTORY
1.

This case was arisen from Lowe's and its contractors damaged

Petitioner's

properties

when

performing

a

contract

for

home

improvement. Petitioner asserted three claims in the complaint, a claim
under Pennsylvania state Unfair Trade Practices and Consumer
Protection Law (“UTPCPL”), and two negligence claims against three
defendants, Lowe's, Ernest, and Walters. However, Petitioner's right to
due process was totally deprived in the entire proceeding, and was
never fairly treated. Petitioner appealed the trial court judgment to the
Superior Court.
Appeal to the Superior court of Pennsylvania
2.

The notice of appeal includes a review of 7 orders of the trial

court. Due to page limit, Petitioner abandoned an order on appeal. The
body of appellant brief has 87 pages.
3.

The appeal presents the following five points to be argued.
POINT 1. The January 11, 2016 injunction order barred Walters
from filing a motion to compel Luo to arbitration.
Walters' participation and contribution to the
arbitration invalidated the award. The trial court
judgment that confirmed the award was mooted.
2

Further, the injunction order also barred Walters from
filing a petition to open default judgment. The default
judgment against Walters should not be opened.
POINT 2. The trial court erred in granting Walters' petition to
open default judgment.
(A) the first element "promptly filed a petition to open"
(B) the second element "provided a reasonable excuse
or explanation for failing to file a responsive
pleading"
(C) the third element "pleaded a meritorious defense to
the allegations contained in the complaint"
POINT 3. The delayed arbitration failed to meet constitutional
requirement, inoperative, and should be banned. There
was no other forum available to decide the claims.
Default judgment against Lowe's and Ernest is the only
available remedy.
POINT 4. Luo was not entitled to be compelled to arbitration. The
arbitration deprived Luo of the right to jury trial, equal
protection, and due process. The arbitration award
should be vacated.
(A) Defendants moved the trial court to dismiss the
complaint and violated the arbitration clause
(B) Ernest abandoned arbitration clause under the civil
rules
(C) The trial court made the arbitration clause
unenforceable
(D) Defendants' applications to compel arbitration were
not in conformity with the laws, and the trial court
has no authority to grant the applications
(E) The trial court orders that compelled Luo to
arbitration were defective and invalid
POINT 5. The Trial court erred in denying Luo's petition to vacate
3

the arbitration award.
(A) The arbitrator acted in bad faith and corrupted, not
impartial
(B) The arbitrator ignored the law
(C) The arbitrator did not read the second amended
complaint to find causes of action, but arbitrarily
decided the arbitration
(D) To favor the three defense attorneys, the arbitrator
did not proceed the hearing according to the
agreement but changed the hearing place to a
location that was convenient for the three defense
attorneys
(E) The arbitration award contravened public policy
and must be vacated
4.

After defendants each filed an Appellee Brief and Petitioner

filed a Reply Brief, the Superior court refused to review this appeal,
and dismissed this appeal by determining Petitioner's brief is defective,
failing to conform to three rule requirements.
5.

However, what the Superior Court found is not a defect in rule

requirements, but is a disagreement about the pleading. What the
Superior court found are as follows:
(l) Appellant's brief presented five points to be argued, and the
Superior court disagreed the number of argument points;
(2) There were two inapplicable conditional rules. The Superior
court found and disagreed that appellant's argument did not
4

conform to the two inapplicable conditional rules!
(3) The Superior court found "appellant’s brief contains
numerous reference to case law1,1, but disagreed 4 out of 53
citations of legal authority.
6.

The Superior Court's decision should knock rational legal

professionals' conscience off. No one mental health legal professional
could believe an appeal could be dismissed because judge disagrees the
number of argument points, or because appellant does not comply with
inapplicable rules, or because judge disagrees some of legal authorities.
7.

The Superior court's decision, which shocks the conscience, has

raised a question of due process of laws whether an appeal could be
dismissed because (l) judge disagrees the number of argument points,
or (2) appellant did not comply with two inapplicable conditional rules,
or (3) judge disagrees 4 out of 53 citations of legal authority.
8.

Further, the Superior court's decision differs from other

appellate courts in the United states and also differs from the other
intermediate appellate court of Pennsylvania (e.g., Pennsylvania
Commonwealth Court).
1 More specifically, appellant argument presented 53 citations of relevant authority in five points.

5

9.

When an appeal is made as a right, appellate court must listen

unless no brief is filed.
10. In other appellate courts, an appeal is not dismissed when
appellant's brief is defective, and appellant is given an opportunity to
cure the defects. Then, if appellant fails to cure his brief, an appeal is
dismissed because appellate court has no brief to review. The dismissal
is because of no brief for a review, not because the brief is defective.
That is a practice, consistent to right to appeal.
11. However, the Superior Court did not give Petitioner an
opportunity to cure his brief, but immediately dismissed the appeal by
determining the brief was defective. The Superior court's decision
differs from other appellate courts and also invades right to appeal.
12. The appeal to the Superior Court presents numerous issues,
which have not been reviewed on the merit. Especially, defendants have
filed their Appellee's Brief to contest appellant's argument on the merit.
The Superior Court has the briefs to review this appeal on the merit. It
appears a review of this appeal on the merit is a better decision.
13. Petitioner has decided to file a petition for writ of certiorari with

6

this Court. The petition for writ of certiorari will ask this Court to
resolve appellate courts' different decision to defective brief, and also
asks this Court whether it is a violation of the right to due process of
law when an appeal is dismissed because judge disagrees number of
argument

points

or because

appellant

does

not

comply

with

inapplicable rules or because judge disagrees some of legal authorities
which were cited in appellant's brief.

REASON FOR EXTENSION
14. Petitioner has a disabled child, with special needs. The child
had no school from July 18, 2019 to September 3, 2019, and had no
support in the summer. Petitioner needed to arrange the child's daily
activity and daily living, and had no time to prepare a petition for writ
of certiorari before September 3, 2019. Without an extension of time, it
is not possible for Petitioner to complete a petition for write of certiorari
before the current due date, October 23, 2019.
15. Accordingly, Petitioner respectfully requests that an order be
entered extending the time to file a petition for writ of certiorari for 40
days, up to and including December 2, 2019.

7

Respectfully submitted,
\

Jenn-Ching Luo
Pro Se
PO Box 261
Birchrunville, PA 19421
516-343-0088
JENNCHINGLUO@GMAIL. COM

8

APPENDIX

9

